 

WAIVER

Supreme Court of the United States

No. 21-5164
Larry G. Coker v. Alabama
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box:
~@ Lam filing this waiver on behalf of all respondents.

O  Ionly represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

 

 

Please check the appropriate box: .

@ [ama member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

OG Iam not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form

4 to: Supreme Court, Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature HLSSEET

Date: Ss | 3-

(Type or aap Nene : Mand. A Naa Star rete
Ms.

OMrs. 0 Miss
Firm Sinte of Al aba ea Ohaany fle At otiy Gran
Address ep Onin er uch agtoA Ave.
City & State Maa foyorSg Ala banar tip 36101
Phone 3349-35 3-392 Email M akc, Smarrete @ Alabana AG. g ov
‘A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF

PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

\ cc: Larry Cokes, AIS #26439
a ts teghe CoM. Fac.
_ ae Nick Davis Rd

 

 

 

. (orvest, Au 24744 ai
